           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   PAYMENTS TO SURVIVING SPOUSES
        AT RETIREMENT AGE

    June 2006     A-09-05-15143




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   June 5, 2006                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Payments to Surviving Spouses at Retirement Age (A-09-05-15143)



        OBJECTIVE
        Our objective was to determine whether surviving spouses received the highest benefits
        due them at retirement age and the Social Security Administration (SSA) properly
        identified and notified eligible surviving spouses about those higher benefits.

        BACKGROUND
        Title II of the Social Security Act (Act) provides retirement and disability benefits to
        surviving spouses who are over age 60 based on their deceased spouses’ earnings.
        The Act also provides retirement benefits to individuals with sufficient earnings who are
        age 62 or older.1 When a surviving spouse under age 62 applies for Title II benefits, the
        spouse is limited to survivor benefits. This limitation was set because individuals are
        not eligible for retirement benefits based on their own earnings until they reach age 62.2

        Title XVI of the Act provides Supplemental Security Income (SSI) payments to
        financially needy individuals who are aged, blind, or disabled.3 Surviving spouses
        who are concurrently entitled to payments under Titles II and XVI and who qualify for
        higher retirement benefits must apply for such benefits.4

        In a prior audit, we found that 16 of 100 surviving spouses were eligible for higher
        retirement benefits. For these individuals, the average benefit increase was about
        $40 per month. We recommended that SSA improve its procedures to assist surviving



        1
            Social Security Act §§ 202(a), 202(e)(1), and 202(f)(1), 42 U.S.C. §§ 402(a), 402(e)(1), and 402(f)(1).
        2
            SSA, POMS, RS 00207.001(B)(1) and RS 00201.001(A).
        3
            Social Security Act § 1602, 42 U.S.C. § 1381(a).
        4
            SSA, POMS, SI 00510.001.
Page 2 – The Commissioner

spouses in receiving the highest benefit for which they were eligible.5 In response to
our audit, SSA mailed notices to approximately 200,000 surviving spouses who were
eligible for higher retirement benefits. As a result, SSA paid approximately $130 million
in additional benefits to these individuals.

SSA subsequently initiated the Widow(er)’s Insurance Benefits/Retirement Insurance
Benefits (WIB/RIB) operation to identify and notify surviving spouses who are eligible
for higher retirement benefits at full retirement and age 70. SSA initiated the WIB/RIB
operation as an outreach project even though it is not required to send notices to these
individuals.6 This operation provides surviving spouses with up to three notices during
their lifetime: at full retirement,7 age 70, and about 1 year after age 70. SSA does not
send notices to surviving spouses who are receiving SSI payments. Instead, SSA’s
field offices (FO) contact the surviving spouses for appropriate action.

In 2004, SSA identified and notified about 46,000 surviving spouses who were eligible
for higher retirement benefits. In addition, SSA identified 944 surviving spouses
receiving SSI payments who were eligible for higher retirement benefits.

RESULTS OF REVIEW
SSA could improve its controls and procedures to ensure surviving spouses receive
higher retirement benefits. Specifically,

•   an estimated 13,268 surviving spouses between full retirement and age 70 were not
    fully aware they were eligible for about $7.4 million in higher retirement benefits,

•   an estimated 18,093 surviving spouses between full retirement and age 70 who
    were eligible for higher benefits could have received an additional $2.3 million in
    retirement benefits if they had been timely notified of their eligibility,

•   an estimated 41,305 surviving spouses between age 62 and full retirement were
    neither identified nor notified about their eligibility for about $52.5 million in higher
    retirement benefits,

•   129 surviving spouses who received SSI payments had not applied for $210,624 in
    retirement benefits, and



5
  SSA, Office of the Inspector General, Payments to Surviving Spouses at Retirement Age
(A-05-95-00016), March 1997.
6
  When claimants submit applications for survivor benefits, SSA is required to explore entitlement on
another earnings record or eligibility for other program benefits, including retirement benefits.
7
 Full retirement is based on an individual’s date of birth. In Calendar Year 2004, the full retirement age
was either 65 years and 2 months or 65 years and 4 months.
Page 3 – The Commissioner

•   11 surviving spouses who no longer received SSI payments were unaware of their
    eligibility for $10,491 in higher retirement benefits.

Surviving Spouses Between Full Retirement and Age 70

As of May 2005, there were approximately 331,698 surviving spouses who were eligible
for retirement benefits between full retirement and age 70. Based on a random sample
of 275 of these cases, we found that 11 surviving spouses were not fully aware of the
amount of higher retirement benefits they were eligible to receive in Calendar Year (CY)
2004. In addition, we found that 15 surviving spouses were not timely notified of their
eligibility for higher benefits in January 2005. The results of our review are summarized
below.



    Surviving Spouses Between Full Retirement and Age 70

       249 (90.5%) Higher                                                         11 (4.0%) Not Fully
      Benefits Not Payable                                                               Aware




                                                                                  15 (5.5%) Not Timely
                                                                                         Notified




      Surviving Spouses Not Fully Aware of Higher Benefits - SSA generally informed
surviving spouses who were eligible for retirement benefits between full retirement and
age 70. However, our audit disclosed that 11 surviving spouses were not fully aware
of their initial eligibility for higher retirement benefits.8 These surviving spouses would
have been entitled to $6,106 in additional payments in CY 2004. Projecting these
results to our population, we estimate that 13,268 surviving spouses were eligible for
about $7.4 million in higher benefits (see Appendix C).

Specifically, we found that SSA’s notices to surviving spouses did not provide
information concerning the amount of increased retirement benefits they were eligible
to receive. Since June 1997, SSA has mailed notices with an explanation of the benefit

8
  SSA mailed notices to 10 of the 11 surviving spouses. However, for one surviving spouse, SSA did
not mail a notice because the individual was awarded survivor benefits after SSA had selected eligible
surviving spouses for its WIB/RIB operation.
Page 4 – The Commissioner

increase to surviving spouses. However, SSA discontinued the detailed notices in the
fall of 2004 because of systems modifications that prevented the inclusion of the benefit
increases in the notices. SSA currently mails a general notice—without specific dollar
amounts.

In addition, although SSA annually mails approximately 140 million Social Security
Statements9 to eligible individuals, surviving spouses are excluded from these mailings.
As a result, surviving spouses do not receive detailed information concerning their
eligibility for retirement benefits. Furthermore, surviving spouses are only provided
information concerning their retirement benefits at full retirement, age 70, and about
1 year after age 70, whereas other individuals are provided detailed benefit information
annually.

During our interviews with surviving spouses, we learned they preferred the notices
to include the monthly benefit increase between the retirement and survivor benefits.
They also preferred that SSA send periodic follow-up notices to inform them of their
eligibility for retirement benefits. SSA staff agreed the notices should provide the
monthly retirement benefit amount; however, because of workload constraints, they
were unable to send these notices at this time.

      Surviving Spouses Not Timely Notified of Higher Benefits - Individuals who submit
applications for retirement benefits after full retirement age may receive retroactive
payments for up to 6 months from the date their application is filed.10 However, our
audit disclosed that SSA did not timely notify surviving spouses of their eligibility for
higher retirement benefits, which may have resulted in the loss of retroactive benefits
payable to these beneficiaries.

Specifically, we identified 15 surviving spouses in our sample of 275 who were eligible
for higher retirement benefits beginning in January 2005 because of delayed retirement
credits earned during CY 2004.11 During our audit, we contacted these individuals to
determine why they had not applied for higher retirement benefits. At the time, we
found that SSA had not notified any of the 15 surviving spouses of their eligibility
for higher retirement benefits. We found that six surviving spouses had applied
for higher benefits due, in part, to our contacts. SSA subsequently conducted a
roundup operation to notify the remaining nine surviving spouses, however, not until
November 2005—which was 10 months after they were initially eligible for higher
retirement benefits.




9
 The Social Security Statement is an annual statement of recorded earnings and estimated
Social Security benefits based on those earnings.
10
     SSA, POMS, GN 00204.030.
11
     Delayed retirement credits are effective in January of each year.
Page 5 – The Commissioner

The 15 surviving spouses were entitled to $4,678 in additional payments in CY 2005.
However, as of November 2005, these individuals could have only received up to
$2,736 in retroactive payments. Had SSA notified them within 6 months of their
eligibility, they would have received an additional $1,942 or 4 months of benefits.
Projecting these results to our population of surviving spouses, we estimate that
18,093 surviving spouses could have received an additional $2.3 million in higher
retirement benefits (see Appendix C).

We recognize there are a number of factors that may affect our estimate of SSA not
timely notifying surviving spouses of their eligibility for higher benefits. For example,
some individuals may apply for retirement benefits before receiving notices from SSA
while others may not elect to receive the maximum amount of retroactive payments.
However, to determine the potential impact of not timely notifying surviving spouses
about their eligibility for higher benefits, we assumed the surviving spouses would not
apply for retirement benefits until after SSA had notified them. We also assumed the
surviving spouses would elect to receive 6 months of retroactive payments.12

Surviving Spouses Between Age 62 and Full Retirement

Our audit disclosed that the WIB/RIB operation was not designed to identify and notify
surviving spouses between age 62 and full retirement about their eligibility for higher
benefits. Without proper notification, these surviving spouses may be unaware of their
eligibility for higher retirement benefits.

Based on a random sample of 275 surviving spouses who were eligible for retirement
benefits and between age 62 and full retirement, we determined that 44 surviving
spouses would have been entitled to $55,946 in additional payments in CY 2004 had
they applied for retirement benefits. Projecting these results to our population of
258,159 surviving spouses, we estimate that 41,305 surviving spouses were eligible
for about $52.5 million in higher retirement benefits (see Appendix C).

We recognize that some surviving spouses may not prefer to receive retirement
benefits before full retirement. Nevertheless, for CY 2004, SSA reported that about
72.2 percent of all retired workers had elected monthly benefits before full retirement
age.13 In addition, although SSA annually mails approximately 140 million Social
Security Statements to eligible individuals, surviving spouses are excluded from these
mailings. Therefore, these individuals may be unaware of their eligibility for higher
retirement benefits.



12
   Although retroactive payments may provide surviving spouses with benefits at an earlier date,
individuals who postpone such payments may be entitled to delayed retirement credits up to age 70,
which would provide higher benefits at a later date.
13
   SSA, Office of Policy, Annual Statistical Supplement, Table 5.B8, Number and average monthly benefit
with and without reduction for early retirement, by sex, December 1956-2004, selected years (2005).
Page 6 – The Commissioner

Surviving Spouses Receiving Supplemental Security Income Payments

In 2004, SSA’s WIB/RIB operation identified 944 surviving spouses who had attained
at least full retirement, were eligible for higher retirement benefits, and were receiving
SSI. As of August 2005, SSA had taken actions for 774 of these surviving spouses
by obtaining applications for retirement benefits or suspending the SSI payments.
However, SSA had not taken actions for the remaining 170 surviving spouses. Of this
amount, 152 were in current pay, and 18 were in suspended or terminated pay. The
results of our review are summarized below.



                Surviving Spouses Receiving SSI Payments
      774 (82.0%) Actions                                                            152 (16.1%) Actions
        Taken by SSA                                                                 Not Taken - Current
                                                                                             Pay




                                                                                   18 (1.9%) Actions Not
                                                                                   Taken - Suspended or
                                                                                      Terminated Pay




      Surviving Spouses in Current Pay - Our audit disclosed that 152 surviving spouses
who were receiving SSI payments had not applied for higher retirement benefits. This
occurred because SSA had not established effective controls to ensure that FOs
obtained applications for retirement benefits or suspended the SSI payments, as
required. Based on the results of our review, SSA subsequently processed applications
for retirement benefits for 129 of the surviving spouses. As a result, these individuals
were entitled to $210,624 in higher retirement benefits from April 1987 to
February 2006.14

Of the remaining 23 cases in current pay, SSA subsequently suspended the SSI
payments for 4 surviving spouses because they had not applied for higher benefits.
In addition, SSA determined that two surviving spouses were deceased, eight were
ineligible for higher benefits, two could not be contacted because they were outside the
United States, one had submitted an application for retirement benefits, and six were
pending development as of February 2006.

14
   The retroactive Title II benefits are subject to reduction, in whole or in part, against the SSI payments
that would not have been due if SSA had paid the Title II benefits on time.
Page 7 – The Commissioner

SSI recipients must apply for all other benefits for which they may be eligible to receive
such benefits.15 SSA’s procedures require that FOs send written, dated notices to
inform SSI recipients about potential eligibility for other benefits, including retirement
benefits. FOs must obtain applications for retirement benefits or suspend the SSI
payments within 30 days of such notification. After the notices are mailed, FOs must
contact the SSI recipients to remind them to apply for other benefits before the 30-day
period ends.16

During our audit, we noted that a number of surviving spouses continued to receive
SSI payments without applying for retirement benefits for up to 24 months after SSA
had identified these cases. Although SSA had attempted to contact the surviving
spouses, it had not completed final actions on these cases, as required. To prevent
future occurrences of similar problems, we believe SSA should improve its oversight of
surviving spouses who receive SSI payments.

      Surviving Spouses in Suspended or Terminated Pay - Our audit disclosed that
18 surviving spouses who no longer received SSI payments were not informed of their
eligibility for retirement benefits. FOs did not take appropriate action because the SSI
payments for these individuals had been suspended or terminated. However, since
SSA did not send notices to these individuals during its WIB/RIB operation, SSA neither
contacted nor notified them about their eligibility for higher retirement benefits. Based
on the results of our review, SSA processed applications for retirement benefits for 11 of
the surviving spouses. As a result, SSA determined these individuals were entitled to
$10,491 in higher retirement benefits from May 2004 to February 2006.

Of the remaining seven cases in suspended or terminated pay, SSA subsequently
determined that one surviving spouse was deceased, two were ineligible for higher
benefits, one could not be contacted, two were notified about their eligibility for
retirement benefits, and one had submitted an application for retirement benefits as
of February 2006.

As part of the WIB/RIB operation, FOs are instructed to contact these surviving spouses
and obtain applications for retirement benefits or suspend the SSI payments. Since the
WIB/RIB operation does not generate notices for these individuals, it is imperative that
FOs follow up to contact or notify all surviving spouses about their eligibility for higher
retirement benefits.

We believe that SSA should provide sufficient and timely information to assist surviving
spouses in making informed decisions about their Social Security benefits. Therefore,
we encourage SSA to improve its controls to ensure that FOs contact surviving spouses
who receive SSI payments and may be eligible for higher retirement benefits. In
November 2005, SSA issued a reminder to all FOs to contact these surviving spouses
even if they are not currently receiving SSI.
15
     20 C.F.R. § 416.210(a).
16
     SSA, POMS, SI 00510.001 and SI 00510.025.
Page 8 – The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA could improve its controls and procedures to ensure surviving spouses receive
higher retirement benefits. Specifically, SSA could improve the content, frequency, and
timeliness of the notices provided to surviving spouses. SSA should also determine
whether surviving spouses between age 62 and full retirement should be informed of
their eligibility for higher retirement benefits. Finally, SSA should improve its controls
over surviving spouses who are eligible for higher retirement benefits and receiving SSI
payments.

We recommend that SSA:

1. Send notices with an explanation of the benefit increase to assist surviving spouses
   in making informed decisions about their Social Security benefits.
2. Send annual follow-up notices to surviving spouses to inform them of their eligibility
   for higher retirement benefits.
3. Conduct the WIB/RIB roundup operation more frequently to ensure surviving
   spouses are timely identified and notified about their eligibility for retirement benefits.
4. Evaluate the feasibility of modifying the WIB/RIB operation to identify and notify
   surviving spouses who are eligible for higher retirement benefits and are between
   age 62 and full retirement.
5. Improve its oversight of surviving spouses receiving SSI payments to ensure FOs
   obtain applications for retirement benefits or suspend the SSI payments.
6. Ensure surviving spouses receiving SSI payments are contacted or notified about
   their eligibility for retirement benefits, even if they are no longer entitled to SSI
   payments.


AGENCY COMMENTS
SSA agreed with Recommendations 5 and 6. Although SSA noted it shared the goal of
ensuring surviving spouses receive the highest benefits due them at retirement age, it
disagreed with Recommendations 1 through 4.

In response to Recommendation 1, SSA stated that providing a monthly benefit amount
on the notices was not always 100 percent favorable. In response to Recommendation
2, SSA stated that its notifications at full retirement age, at age 70, and about 1 year
after age 70 are sufficient. Although SSA disagreed with Recommendation 3, it stated it
would conduct its annual roundup operation in the spring rather than the fall, which
would resolve the issue. In response to Recommendation 4, SSA stated that, in some
cases, it would not be advantageous for these spouses to file for reduced retirement
benefits. See Appendix D for the full text of SSA’s comments.
Page 9 – The Commissioner

OIG RESPONSE

We believe our recommendations will provide surviving spouses with better information
to make knowledgeable decisions concerning their eligibility for retirement benefits. As
we noted in our report, SSA annually mails approximately 140 million Social Security
Statements to inform individuals of their eligibility for retirement benefits. These
statements include an estimated monthly retirement benefit amount. Unfortunately,
SSA excludes surviving spouses from this annual mailing. SSA notifies surviving
spouses of their eligibility for retirement benefits through the WIB/RIB operation. We
believe surviving spouses, at minimum, should be provided the same information (that
is, estimated monthly retirement benefit annually) as all other individuals who receive
the legislatively mandated Social Security Statements. Our recommendations propose
ways by which this can be accomplished.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
Act      Social Security Act
C.F.R.   Code of Federal Regulations
CY       Calendar Year
FO       Field Office
MBR      Master Beneficiary Record
MEF      Master Earnings File
POMS     Program Operations Manual System
RIB      Retirement Insurance Benefits
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
WIB      Widow(er)’s Insurance Benefits
                                                                      Appendix B

Scope and Methodology
We obtained a data extract of 944,834 surviving spouses who were in current pay
status on the Master Beneficiary Record (MBR) as of May 2005 and who had a date of
birth between January 2, 1935 and January 1, 1943. We also obtained the earnings
records for these surviving spouses from the Master Earnings File (MEF). Using this
information, we identified a population of 331,698 surviving spouses who were eligible
for retirement benefits and were between full retirement and age 70. In addition, we
identified a population of 258,159 surviving spouses who were eligible for retirement
benefits and were between age 62 and full retirement. From each population, we
selected a random sample of 275 surviving spouses for review (see Appendix C).

As part of the Social Security Administration’s (SSA) Widow(er)’s Insurance
Benefits/Retirement Insurance Benefits operation, we obtained a list of 944 surviving
spouses who were between full retirement and age 70, were eligible for higher
retirement benefits, and had received Supplemental Security Income payments in
Calendar Year 2004. We found that, as of August 2005, 170 of the 944 surviving
spouses were still in current pay status and had not applied for higher retirement
benefits. We referred these cases to SSA for corrective action.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Code of Federal
    Regulations, U.S. Code, and SSA’s Program Operations Manual System;

•   interviewed SSA employees from the Western Program Service Center and the
    Offices of Quality Assurance and Performance Assessment, Public Services and
    Operations Support, Retirement and Survivors Insurance Systems, and Income
    Security Programs;

•   extracted 2 random samples of 275 surviving spouses who were eligible for
    retirement benefits and between full retirement and age 70 or between age 62
    and full retirement;

•   obtained queries from SSA’s MBR, Supplemental Security Income Record, and
    Numident;

•   reviewed notices to surviving spouses from SSA’s Notice Retrieval System;

•   computed the primary insurance and monthly benefit amounts using
    SSA’s Modernized Claims System;




                                           B-1
•   conducted telephone interviews with 39 surviving spouses between full retirement
    and age 70 to determine whether these individuals were aware of their eligibility for
    higher retirement benefits and interested in receiving the additional payments;

•   referred 170 surviving spouses who received Supplemental Security Income
    payments and who had not applied for higher retirement benefits to SSA for
    appropriate action; and

•   reviewed the corrective actions SSA had taken to obtain applications for retirement
    benefits or suspend the SSI payments to these individuals.

We determined the computer-processed data from the MBR were sufficiently reliable
for our intended use. We conducted tests to determine the completeness and accuracy
of the data. These tests allowed us to assess the reliability of the data and achieve
our audit objective. We relied on the earnings records obtained from the MEF as the
basis for determining whether the surviving spouses had sufficient earnings to be
included in our population. We did not test SSA’s automated systems to verify the
completeness and accuracy of the MEF. The entity responsible for maintaining the
MEF is the Office of Earnings, Enumeration, and Administrative Systems under the
Deputy Commissioner for Systems.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
June 2005 and February 2006. The entity audited was the Office of Income Security
Programs under the Deputy Commissioner for Disability and Income Security Programs.
We conducted our audit in accordance with generally accepted government auditing
standards.




                                            B-2
                                                                      Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record of all surviving spouses who were in current pay status as of
May 2005 and had a date of birth between January 2, 1935 and January 1, 1943.
From this data extract, we identified two populations of surviving spouses who were fully
insured with 40 quarters of coverage or more but had not received retirement benefits
on their own earnings records.

Surviving Spouses Between Full Retirement and Age 70

We identified a population of 331,698 surviving spouses with a date of birth
between January 2, 1935 and September 1, 1939 who had attained at least full
retirement (that is, 65 years and 4 months) but had not attained age 70 between
January and December 2004. We randomly selected 275 surviving spouses to
determine whether they were eligible for higher retirement benefits. We interviewed the
surviving spouses to determine whether they were aware of their eligibility for higher
retirement benefits.

Based on a random sample of 275 surviving spouses who were eligible for retirement
benefits and between full retirement and age 70, we found that 11 surviving spouses
were not fully aware of their eligibility for higher retirement benefits. We determined
these surviving spouses would have been entitled to $6,106 in additional payments in
Calendar Year 2004 had they applied for retirement benefits. Projecting these results
to our population of 331,698 surviving spouses, we estimate that 13,268 surviving
spouses were eligible for about $7.4 million in higher benefits as retired workers rather
than surviving spouses. The following tables provide the details of our sampling results
and statistical projections.

                        Table 1 – Population and Sample Size

            Population                  Population Size              Sample Size
 Surviving Spouses Between
 Full Retirement and Age 70                 331,698                       275

                               Table 2 – Sample Results

                                                      Surviving Spouses Not Fully
                Projection                             Aware of Higher Benefits
 Surviving Spouses                                                  11
 Additional Payments                                            $6,106




                                           C-1
               Table 3 – Statistical Projections for Surviving Spouses

                                                      Surviving Spouses Not Fully
                  Projection                           Aware of Higher Benefits
 Point Estimate                                                  13,268
 Lower Limit                                                      7,496
 Upper Limit                                                     21,670

              Table 4 – Statistical Projections for Additional Payments

                                                      Surviving Spouses Not Fully
                  Projection                           Aware of Higher Benefits
 Point Estimate                                                $7,365,264
 Lower Limit                                                   $1,967,757
 Upper Limit                                                  $12,762,770

In addition, we found that 15 surviving spouses were eligible for higher retirement
benefits beginning in January 2005. We determined these surviving spouses were
entitled to $4,678 in additional payments in Calendar Year 2005. Had SSA notified
these individuals within 6 months of their eligibility, they could have received $1,942 in
additional benefits. Projecting these results to our population of 331,698 surviving
spouses, we estimate that 18,093 surviving spouses could have received an additional
$2.3 million in higher retirement benefits. The following tables provide the details of our
sampling results and statistical projections.

                               Table 5 – Sample Results

                                                     Surviving Spouses Not Timely
                Projection                            Notified of Higher Benefits
 Surviving Spouses                                                   15
 Additional Payments                                            $1,942

               Table 6 – Statistical Projections for Surviving Spouses

                                                     Surviving Spouses Not Timely
                  Projection                          Notified of Higher Benefits
 Point Estimate                                                 18,093
 Lower Limit                                                    11,254
 Upper Limit                                                    27,444




                                            C-2
              Table 7 – Statistical Projections for Additional Payments

                                                     Surviving Spouses Not Timely
                  Projection                          Notified of Higher Benefits
 Point Estimate                                               $2,342,632
 Lower Limit                                                  $1,228,268
 Upper Limit                                                  $3,456,997

All statistical projections are reported at the 90-percent confidence level.

Surviving Spouses Between Age 62 and Full Retirement

We also identified a population of 258,159 surviving spouses with a date of birth
between September 2, 1939 and January 1, 1943 and who had attained at least
retirement age (that is, 62 years) but had not attained full retirement between
January and December 2004. We randomly selected 275 surviving spouses to
determine whether these individuals were eligible for higher retirement benefits.

Based on a random sample of 275 surviving spouses who were eligible for retirement
benefits and were between age 62 and full retirement, we found that 44 surviving
spouses would have been entitled to $55,946 in additional payments in Calendar
Year 2004 had they applied for retirement benefits. Projecting these results to our
population of 258,159 surviving spouses, we estimate that 41,305 surviving spouses
were eligible for about $52.5 million in higher retirement benefits. The following tables
provide the details of our sampling results and statistical projections.

                         Table 8 – Population and Sample Size

           Population                    Population Size               Sample Size
 Surviving Spouses Between
 Age 62 and Full Retirement                  258,159                           275

                                Table 9 – Sample Results

                                                           Surviving Spouses
              Sample Results                           Eligible for Higher Benefits
 Surviving Spouses                                                     44
 Additional Payments                                              $55,946




                                            C-3
              Table 10 – Statistical Projections for Surviving Spouses

                                                           Surviving Spouses
                  Projection                           Eligible for Higher Benefits
 Point Estimate                                                   41,305
 Lower Limit                                                      32,195
 Upper Limit                                                      51,858

             Table 11 – Statistical Projections for Additional Payments

                                                           Surviving Spouses
                  Projection                           Eligible for Higher Benefits
 Point Estimate                                                $52,519,585
 Lower Limit                                                   $30,824,852
 Upper Limit                                                   $74,214,318

All statistical projections are reported at the 90-percent confidence level.




                                            C-4
                  Appendix D
Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM


Date:      May 26, 2006                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Payments to Surviving Spouses at
           Retirement Age" (A-09-05-15143)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT
"PAYMENTS TO SURVIVING SPOUSES AT RETIREMENT AGE" (A-09-05-15143)


Thank you for the opportunity to review and comment on the draft report. We appreciate the
Office of the Inspector General’s (OIG) efforts to conduct this review and share the goal of
ensuring that surviving spouses receive the highest benefits due them at retirement age. In an
effort to attain that goal, we instituted the Widow(er)’s Insurance Benefits/Retirement Insurance
Benefits (WIB/RIB) operation which sends notices to surviving spouses who are eligible
for higher retirement benefits at full retirement and age 70. This workload is strictly an outreach
project and is not required by law, regulations or procedures. While we agree that some of the
enhancements proposed in this report may be helpful, our ability to implement many of the
recommendations will ultimately be driven by budget allocations. Any additional resources
expended will occur only if resources are available after we process all of our legislatively
mandated workloads.

Recommendation 1

The Social Security Administration (SSA) should send notices with an explanation of the benefit
increase to assist surviving spouses in making informed decisions about their Social Security
benefits.

Response

We disagree. It is our goal to provide the most accurate information in our notices and
communications wherever possible. While we acknowledge that the beneficiaries in the audit
stated that it would be helpful to have an actual benefit amount included in these notices, our
previous experience with notices that contained actual benefit increase amounts was not always
100 percent favorable. This was because benefit increase calculations were based on information
that was several weeks old. Subsequent earnings postings and benefit computation adjustments
may have changed the correct benefit amount either up or down. The discrepancies in the
estimated amounts contained in the notices, compared to the final calculation, caused public
relations problems with some beneficiaries when they contacted the field offices (FO).
Therefore, we believe the current process of leaving the benefit computation off the notice and
having the beneficiary contact the FO for a current benefit rate computation is a better option.
Additionally, to return to producing notices with the amount of increase included would require
resources that are not currently available.

Recommendation 2

SSA should send annual follow-up notices to surviving spouses to inform them of their eligibility
for higher retirement benefits.




                                                D-2
Response

We disagree. We believe the three current Widow(er)’s Insurance Benefit/Retirement Insurance
Benefit (WIB/RIB) notifications (at full retirement age, at age 70, and about one year after age
70) are sufficient. Sending a notice every year would be excessive and there is no evidence it
would be cost-effective. In addition, in an annual mailing operation, if beneficiaries inform us
after the first notice that they are not interested, or they want to wait until age 70 to get the
largest benefit amount possible, we would need to build software to capture this decision in order
to suppress future notices. Given the Agency's limited information technology resources and the
many other competing software development priorities, we do not believe creating this software
would be cost-effective. Finally, additional Operations resources would be required to input
these decisions.

Recommendation 3

SSA should conduct the WIB/RIB roundup operation more frequently to ensure surviving
spouses are timely identified and notified about their eligibility for retirement benefits.

Response

We disagree. We do not believe that running the WIB/RIB operation more frequently would
address OIG’s concerns. We can, however conduct the yearly roundup operation in the spring
rather than in the fall. This would solve the retroactivity issue raised by OIG. However, if the
surviving spouses continue to work, we will not have all the earnings posted to the Master
Earnings File in the spring. We continue to support the 1997 Associate Commissioner Steering
Committee decision that a yearly roundup operation to identify surviving spouses who first
became eligible for higher RIB after the full retirement age year is sufficient to reach the target
universe.

Recommendation 4

SSA should evaluate the feasibility of modifying the WIB/RIB operation to identify and notify
surviving spouses who are eligible for higher retirement benefits and are between age 62 and full
retirement.

Response

We disagree. We do not believe that we should solicit applications for reduced benefits. OIG’s
estimate that 41,305 surviving spouses were eligible for about $52.5 million in higher retirement
benefits is somewhat misleading when viewed in the context of SSA’s procedures concerning
advantageous and disadvantageous month of entitlement. OIG did not break out how many of
these potential notice recipients would be requested to contact SSA about higher benefits -- only
to be told in the interview that filing for reduced RIB would definitely be disadvantageous.
From a service perspective, we do not believe surviving spouses would react favorably to a
notice explaining the possibility of higher benefits only to be told it would not be to their
advantage to file for the benefits.



                                                D-3
Recommendation 5

SSA should improve its oversight of surviving spouses receiving Supplemental Security Income
(SSI) payments to ensure FOs obtain applications for retirement benefits or suspend the SSI
payments.

Response

We agree. Currently, each year, we identify eligible SSI recipients to determine insured status
for retirement benefits. For fiscal year 2006, we began using a certified earnings record for more
accurate data and to establish a control for any earnings record correction issues. We also began
to select SSI recipients, previously denied for lack of disability insured status, who are now
61 and 9 months of age, to determine if insured status is met for retirement benefits. Under that
process, we set a control diary for the FO to process a Title II application. In addition, we are
currently working on the Preventative Measures for Missed Entitlement IT project. This project
will set up mechanisms to establish additional controls that ensure a Title II claim is taken. We
will also issue an Administrative Message (AM) before each WIB/RIB mailing, as we have done
in the past, to ensure that FOs make the necessary contacts to obtain applications for retirement
benefits and that they conduct follow-ups on non-responders.

Recommendation 6

SSA should ensure surviving spouses receiving SSI payments are contacted or notified about
their eligibility for retirement benefits even if they are no longer entitled to SSI payments.

Response

We agree. We will include this instruction in the AM issued before each WIB/RIB mailing.




                                               D-4
                                                                      Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   Manfei Lau, Auditor-in-Charge

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-15143.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
